ORtiQGfWM
C'

No.

0-64

Supreme Court, U.S.
FILED
i-r-

rj-:

^P0V 0 9 2320

qjj

OFFICE OF THE CLERK

Supreme Court of the United States

Patricia Ann Wade, Petitioner
v.
Trustees of Indiana University, et aL, Respondent

On Petition for a Writ of Certiorari to the United States Court of Appeals for the Seventh Circuit

Petition for a Writ of Certiorari

Patricia Ann Wade, Pro Se Petitioner
512 Grand View St
Spencer, IN 47460
blissfulafterglowffigmail.com
317 519-4041

RECEIVED
NOV 1 8 2020

Table of Contents

page
Questions
Parties to the Proceedings
Statement of Related Proceedings
Opinions
Jurisdiction
Constitutional and Statutory Provisions
Table of Authorities
Index to Appendices
Statement of the Case
Reasons for Granting the Writ
Conclusion
Appendices A,B, & C

•

1
10
11

Questions Presented

Unlike employees of local governments and private entities, employees of state entities are excluded
from recovering monetary relief when injured by their employers. State employers escape
accountability for their unconstitutional behavior by invoking the c.octr ne of state sovereign immunity.
I. Which parts of the constitution (if any) justify the doctrine of state sovereign immunity?
II. Which parts of the constitution are at odds with the doctrine of s tate sovereign immunity?
III. What should be the fate of state sovereign immunity?

Parties to the Proceeding
The Pro Se Petitioner is Patricia Ann Wade, who was the Plaintiff • Appellee in the court below.
The Respondent is Trustees of Indiana University, et. al., who was the Defendant - Appellant in
the court below. The Respondent was represented by James R. Dawson, Attorney at Taft Stettinius &
Hollister LLP, One Indiana Square, Suite 3500, Indianapolis, Indiana 46204 - 2023. www.taftlaw.com
Jdawson(5)taftlaw.com. 317 713-3568

Statement of Related Proceedings
1. Patricia Ann Wade v. Trustees of Indiana University, et, al., iMo. 16-cv-02256-TWP-MJD
in the United States District Court for the Southern District of Indiana. IT e case was dismissed on
summary judgment.
2. Patricia Ann Wade v. Trustees of Indiana University, et, al., .Mo. :.9-2936 in the United States
Court of Appeals for the Seventh Circuit. The Appeals Court affirmed the District Court's
summary judgment.
Opinions
The opinion of the United States court of appeals appears as Appendix A.
The opinion of the United States district court appears as Appencix B.
Neither were published.
Jurisdiction
The Seventh Circuit Appellate Court filed their final Order cm Case 19-2936 on June 10, 2020.
The filing deadline for the Petition for a Writ of Certiorati is Mo "iclay, November 9, 2020.
I mailed the Petition on November 9, 2020.

f

Constitutional and Statutory Provision:; Involved
Doctrine of Sovereign Immunity
Preamble
Supremacy Clause
Due Process Clause
1st Amendment
11th Amendment
14th Amendment
42 U.S.C. $ 1983

Table of Authorities
Cases

page

Alden v. Maine
College Savings Board
Delahoussaye v. City of New Ibera
Gibbons v. Ogden
Idaho v. Coeur d' Alene Tribe
Johnson v. Robinson
Kimel v. Florida Board of Regents
Marbury v. Madison
McCulloch v. Maryland
McNary v. Haitian Refugee Ctr., Inc.
Oestereich v. Selective Service Local Bd.
Printz
Roth v. Bd of Regents
United States v. Mendoza-Lopez
Webster v. Doe

1
1
4
2
1
7
8
3
4
7
7
2
7
7
7

Statutes
42 U.S.C $ 1983

9

Index to Appendices

A. The Seventh Circuit Appellate Court's Final Order Denyirg Rehearing
B. The opinion of the United States court of appeals
C. The opinion of the United States district court.

II

Statement of the Case

In several recent cases, the Supreme Court decided that protecting state treasuries is
more important than protecting the rights of individuals, and that state immunity is entitled
to greater weight under the Constitution than the rights of individuals. When reviewing Alden
v. Maine, Professor Chemerinsky lamented:
The Court has preferred protecting government abuses of power over the
ability of individuals to gain a remedy for violations of their rights
[Chemerinsky, Erwin. Hypocrisy of Alden v. Maine. Judicial Review, Sovereign
Immunity and the Rehnquist Court. Loyola of Los Angeles Law Review, Vol 33:
1283 (2000) p. 1308.]

Why does the Court grant state governments immunity and allow them to violate citizens'
rights without paying damages for the injuries they inflict? Let's consider three justifications:
Judicial Tradition, Financial Drain, and State Embarrassment.

Why do the courts cling to state sovereign immunity?

1. Judicial Tradition. Sovereign immunity is based on common law doctrine borrowed
from English common law. It derives not from constitutional text but rather as an inference
from constitutional structure (see Alden v. Maine and College Savings Board). At one time,
The Eleventh amendment immunized state agencies from private suits. Agencies exercising
state power invoked the 11th Amendment to protect the state treasury from liability. But then
the Supreme Court decided that state sovereign immunity doctrine is inconsistent with the
language of the 11th Amendment. Justice Kennedy decided:
1

Sovereign immunity derives not from the 11th Amendment but from the
structure of the original Constitution itself... The States' immunity from suit is a
fundamental aspect of the sovereignty which the states enjoyed before the
ratification of the Constitution, and which they retain today. [Alden v. Maine 527
U.S. 706, 728 (1999)].

Thus, with Alden, the pretext for sovereign immunity changed but states could continue to
violate Federal law and not be held accountable. The pretext was not without dissenters.
Justice Souter countered :
The American Colonies did not enjoy sovereign immunity, that being a
privilege understood in English law to be reserved for the Crown alone;
"antecedent to the Declaration of Independence, none of the colonies were, or
pretended to be, sovereign states,"... Several colonial charters, including
those of Massachusetts, Connecticut, Rhode Island, and Georgia, expressly
specified that the corporate body established thereunder could sue and be
sued. [Alden v. Maine, 119 S. Ct. 2240, 2246-47 (1999)].

Justice Souter's view aligned with that of Chief Justice Marshall who declared:...

Kennedy's argument has a principle nowhere found in the Constitution.
Sovereign Immunity means that a state cannot be sued for violating the
Constitution and laws made pursuant to it. Alden means that the Constitution
is subordinate to the principle of state sovereign immunity. This is inconsistent
with the Constitution's declaration in Article VI that it and laws and treaties
made pursuant to it, is the supreme law of the land. [U.S. CONST. Art. VI c.2;
Supreme Court in Gibbons v. Ogden, 22 U.S. 1 (1824),]

In Printz, Justice Scalia reaffirmed Chief Justice Marshall's view regarding supremacy and
judicial enforcement of constitutional laws;
The Constitution was originally understood to permit imposition of an
obligation on state judges to enforce federal prescriptions... appropriate for
the judicial power.

2

The structure of the Constitution includes the principle of accountability. In Marbury v.
Madison, Chief Justice John Marshall explained that the Constitution's main objective is to
limit the actions of government and government officers. Governments must be held
accountable for their actions. The Marbury Court declared:
The very essence of civil liberty certainly consists in the right of every
individual to claim the protection of the laws, whenever he receives an injury.
One of the first duties of government is to afford that protection... where there
is a legal right, there is a legal remedy by suit, or action at law, whenever that
right is invaded. [Marbury v. Madison, 5 U.S. (1 Cranch) 137,163 (1803)].

Also, Justice Scalia wrote:
At the time of Marbury v. Madison, there was no doctrine of domestic
sovereign immunity, as there never had been in English Law ( Historical
Anomalies in Administrative Iaw103,104 1985 Yearbook 103,104).

In Kimel, Justice Stevens reinforced the dissent;
There is not a word in the text of the Constitution supporting the Court's
conclusion that the judge-made doctrine of sovereign immunity limits
Congress' power to authorize private parties, as well as federal agencies, to
enforce federal law against the States.

Abraham Lincoln emphasized accountability, too:
It is as much the duty of Government to render prompt justice against itself in
favor of citizens as it is to administer the same between private individuals [ 6
James D. Richardson, A Compilation of the Messages and Papers of the
Presidents, 51 (1898)].

Professor Akhil Amar argues that principle of government accountability is apparent in
many parts of Constitution, including the Preamble. The phrase, 'We the People,' makes the
citizens sovereign - not the state governments sovereign [Akhil Amar, Of Sovereignty and
3

Federalism, 96 Yale L.J. 1425 (1987)]. Similarly, Chief Justice John Marshall declared that:
The government proceeds directly from the people; is 'ordained and
established in the names of the people [ McCulloch v. Maryland 17 U.S. (4
Wheat.) 316 (1819) at 403],

Thus, sovereign immunity can be justified by neither an originalist - textualist perspective
nor judicial tradition, and the doctrine is not constitutionally protected.

2. Drain on the State Treasury. After the civil war, states were deeply in debt and
strongly opposed to being liable for their debts - hence the creation of the Eleventh
Amendment. A primary objective of the Eleventh Amendment was to protect state
treasuries. At the time, the Supreme Court chose to protect state government treasuries at
the expense of individuals. The Court chose immunity for state governments instead of
accountability for state governments.
Courts created a myriad of rules to determine which entities are arms of the state and
are eligible to enjoy immunity. For example, the fifth circuit applies a six factor test that
includes the following questions: Is the entity an arm of the state; what are the entity’s
funding sources; and does the entity have the ability to sue or be sued apart from the state?
The most import of the six factors is assessing an entity's revenue sources: Will a judgment
against the entity be paid with state funds? [Delahoussaye v. City of New Iberia, 937 F.2d 144,
147-48 (5th Cir 1991)] If this were the only criteria, municipalities, school districts, police
units and other local arms of government would enjoy state sovereign immunity, too.
Collectively, municipalities spend almost as much state money as state governments and
provide essential services such as education, law enforcement, and housing.

4

If my former employer, Indiana University School of Medicine (IUSM), were to be
judged by its funding sources, then the medical school would flunk the eligibility test. IUSM
would be stripped of its sovereign immunity and the courts would provide due process and
remedies for IUSM employees who were harmed by their employer. Why would IUSM fail the
test? As the largest medical school in the nation, IUSM has a diverse multi-billion dollar
revenue stream.
Though a public medical school, the state of Indiana funds only about 10 % of IU
School of Medicine operating costs
(https://mednet.iu.edu/MasterDocLibrary/102419-IUSM-AnnualReport.pdf p22).

lUSM's federal revenue stream is larger than its state revenue stream. In 2019, it received
over $361 million in research funding (IUSM annual report 2018 -19, p.14). Since the medical
school has educational centers in 10 counties, it received a significant amount of revenue
from each county in Indiana. Philanthropic gifts and grants totaled 1.4 billion ($628.8 million
in philanthropic gifts and $817.8 million in non-government grants). Since IUSM has a broad
array of revenue sources, the state treasury will not be drained if IUSM is liable for injuries
and its employees receive monetary compensation. So why are IUSM employees are still
haunted by the sovereign immunity zombie?

3. State Embarrassment - Loss of Dignity. The third defense of sovereign immunity is
that a state can't be a defendant in federal court because it would offend its dignity:
The third defense of sovereign immunity is that a state can’t be a defendant in federal court
because it would offend its dignity:

5

The preeminent purpose of state sovereign immunity is to accord States the
dignity that is consistent with their status as sovereign entities. (Idaho v.
Coeur d'Alene Tribe, 1997).

Scholar Paul Gowder disagrees:
States don't have dignity of their own, except insofar as they serve their
people. Moral standing and worth is limited to humans, not the corporate
entities they create [Gowder, Paul. The Rule of Law Against Sovereign
immunity Texas Law Review, Vol 93 247 (2015) p248].

Scholar Aman Pradhan disagrees, too:
The term 'dignity' is a misnomer. The starting premise of popular sovereignty
and limited government is that governmental actors have dignity because they
are vested with power by the people and are subject to the rule of law. Thus
suability does not comprise state dignity; it is its source [Pradhan, Aman.
Rethinking the Eleventh Amendment: Sovereign Immunity in the United States
and the European Union. Legislation and Public Policy, Vol. 11:215 p. 230].

In short, state sovereign immunity has no Constitutional underpinnings and no credible
defense. In spite of being an Emperor with no clothes, the common law doctrine of sovereign
immunity trumps even the Constitution and federal laws in today's courts. It bars suits for
relief against government entities in violation of the Constitution and Federal Laws.

Why is the Doctrine of Sovereign Immunity Unconstitutional?

State sovereign immunity is inconsistent with the Constitution because it is
incompatible with at least five fundamental constitutional principles: the supremacy of the
Constitution and federal laws; the accountability of government; due process of law, the
petition clause of the first amendment, the preamble, and entitlement to privileges or

6

immunities. Each of these constitutional doctrines by itself is sufficient to justify declaring
the sovereign immunity doctrine unconstitutional. We will consider four of them: the
Supremacy Clause, Due Process, 14th Amendment, and Preamble.
1 & 2. Supremacy Clause and Due Processes. According to Article IV of Constitution,
the Constitution and laws made pursuant to them are the supreme law and should prevail
over government claims of sovereign immunity. A key principle of US government is the
maxim that no one, not the President and not the government agencies, are above the law.
Sovereign immunity tramples this key principle. It places the government above the law and
ensures that some citizens who have suffered egregious harms will be unable to receive
redress for their injuries. The judicial role of enforcing and upholding the Constitution is
rendered illusory when the government has complete immunity. Moreover, sovereign
immunity undermines the basic principle that 'the very essence of civil liberty certainly
consists in the right of every individual to claim the protection of the laws whenever he
receives an injury' [Chemerinsky, Erwin. Against Sovereign immunity. Stanford Law Review,
Vol. 53:1201. p.1202; Marbury vs. Madison, 5 U.S. (1 Cranch) 137,163 (1803)]."
Many times, the Supreme Court has identified a deprivation of life, liberty, or property
and declared the need for a judicial forum, state or federal, to provide redress [Oestereich v.
Selective Serv. Local Bd, No.11, 393 U.S. 233, 243 n.6 (1968); Richard H. Fallon, Jr Some
Confusions About Due Process, Judicial Review, and the Constitutional Remedies, 93 COLUM.
L. REV. 309 (1993); Johnson v. Robison, 415 U.S. 361, 368-70 (1974); Webster v. Doe, 486 U.S.
592, 599-600 (1988); McNary v. Haitian Refugee Ctr., Inc., 498 U.S. 479, 491-95 (1991); United
States v. Mendoza-Lopez, 481 U.S. 828, 835 (1987)]. Unfortunately, the Supreme Court's
recent decisions involving sovereign immunity established a pattern of injury i:o individuals
7

accompanied by the deprivation of any type of judicial forum. For example, in Kimel v.
Florida Board of Regants, the state employees had a liberty and property inter est created by
federal law that provides freedom from age discrimination, but they had no judicial forum
and no due process.(Afe/ne, College Savings Bank, Kimel, Roth v. Bd of Regents, 408 U.S.
564, 576-78 (1972) Chemerinsky, Erwin. Against Sovereign Immunity. Stanford Law Review,
Vol. 53:1201. p.1202
3. Fourteenth Amendment. The Fourteenth Amendment single-handedly eviscerates
the doctrine of sovereign immunity:
If common law immunity is built into the very structure of the Constitution,
then only a structural change can displace it. As ... Fitzpatrick recognized, the
Fourteenth Amendment restructured the balance between federal and state
power, modifying the original design of the Constitution and the original, plan
for state sovereign immunity. Thus, Aider's dictum about tax refund litigation
was wrong at the time of writing because Fitzpatrick, taken to its logical
extension, demands that private plaintiffs can recover unlawfully exacted
taxes without being barred by state sovereign immunity... As Fitzpatrick
recognized, this represents a fundamental reshaping of the federal-state
relationship - including the very structural postulates from which the Court
has drawn its modern sovereign immunity doctrine. Thus, when a state
deprives a person of property without just compensation or refuses to refund
tax monies unlawfully exacted, due process demands a remedy - state
sovereign immunity notwithstanding. Rights for which the Fourteenth
Amendment itself provides a cause of action cannot be shielded from the
courts.” [Reconciling State Sovereign Immunity with the Fourteenth
Amendment - Notes, Harvard Law Review Vol. 129:1068, (2016) p.1089].

4. Preamble to the Constitution. The Preamble presents our country's core values:
We the People of the United States, in Order to form a more perfect Union,
establish Justice, insure domestic Tranquility, provide for the common
defense, promote the general Welfare, and secure the Blessings of Liberty to
ourselves and our Posterity, do ordain and establish this Constitution fctr the
United Sates of America.

8

Notice that the Preamble does not start with The federal government...' or 'Each of the
states...' It deliberately and immediately makes individual U.S. citizens the featured entity.
Chief Justice John Marshall re-emphasized that the citizenry is first and foremost, not
secondary to governments:
The government proceeds directly from the people; is ordained and
established in the names of the people.

Sovereign immunity is at odds with the core values reflected in the Preamble because it
values state governments over citizens.

Nothing Precludes the Supreme Court from Retiring the Doctrine of Sovereign Immunity
State sovereign immunity is now detached from the Eleventh Amendment's
text and appears to be a universal default absent affirmative destruction... The
modern Immunity Theory now emphasizes constitutional structure and
constitutional history to explore the boundaries of state sovereign immunity...
And the Fourteenth Amendment's impact on sovereign immunity is
unmistakable. Section I of the Fourteenth Amendment extinguished state
sovereign immunity. To the extent that a State violates the substantive
provisions of the Fourteenth Amendment - be it the protections found within
that Amendment, or the constitutional protections incorporated against states
through the Fourteenth Amendment - such violations are unprotected by state
sovereign immunity. A Section 5 enactment is not required to abrogate state
sovereign immunity, because Section 1 has already eviscerated state
sovereign immunity with respect to its provisions.

Congress need only to create a right of action against the states to allow
citizens to vindicate their constitutional rights. Congress has created such a
right of action - 42 U.S.C $ 1983. However, the Court previously ruled that
States are not 'persons' for $ 1983 purposes because of state sovereign
immunity concerns. In light of this Article's assessment of state sovereign
immunity giving way to Section 1 of the Fourteenth Amendment, this Article
concludes that 42 U.S.C $1983 is a viable right of action against infringing
states. No state sovereign immunity exists against violations of the Fourteenth

9

Amendment, and therefore no state sovereign immunity concerns exist to
validate removing States from the scope of 42 U.S.C $ 1983 constitutional tort
suits (Gunn, Travis. The Fourteenth Amendment: Structural Waiver of State
Sovereign immunity for Constitutional Tort Suits. Northern Illinois University
Law Review (2014) Vol. 35, p72-73.)

Reasons for Granting the Petition

For All State Employees
State sovereign immunity is unconstitutional. It is at odds with the Preamble, Supremacy
Clause, Due Process Clause, 1st and 14th Amendments. It renders state entities above the law, without
accountability and without deterrence mechanisms. It leaves injured employees with no practical
recourse and deters them from filing suits. Why file a suit when the best possible outcome is to incur
thousands of dollars in unreimbursed legal expenses, spend additional years reliving the traumatic
ordeal, and have a judge offer you nothing but job reinstatement as compensation? When found
guilty, a state entity does not provide monetary relief in the form of back pay, front pay, and
compensation for pain and suffering. When found guilty, the state entity is not fined and federal
funding is not withheld. And state entities are well aware that they won't be held accountable for
discriminatory, retaliatory, and unconstitutional acts against employees. When the IUSM attorney
offered me a severance package, he let me know that if I filed an EEOC complaint, the best possible
outcome would be job reinstatement. I was incredulous. That was so unjust! IUSM eliminated 7 oldtimers in my department within a five month period and later terminated me. How could IUSM be
immune to disciple?

10

The United States Supreme Court should value 'We the people1 over state institutions and
discard the unjust unconstitutional doctrine of state sovereign immunity that renders state entities
unaccountable and immune to discipline. By retiring the antiquated doctrine of sovereign immunity,
judges will be taking a running leap closer to realizing our country's cores values and affirming their
oath to 'administer justice without respect to person, and do equal right to the poor and to the rich.

For the Petitioner
With respect to my case of age discrimination and retaliation that was dismissed on summary
judgment, I ask the Supreme Court to send my case back to the District Court for reconsideration. I ask
for legal counsel and additional discovery. The doctrine of sovereign immunity prevented me from
retaining legal counsel on contingency. Lawyers refused to take my case on contingency because there
was no prospect of a monetary award and I had to proceed without counsel.

Conclusion

The petition for a write of certiorari should be granted.
Respectfully submitted,

date

11

